ONE SHELL PLAZA
910 LOUISIANA
HOUSTON, TEXAS
77002-4995
TEL +1 713.229.1234
FAX +1 713.229.1522

AUSTIN
BEIJING
BRUSSELS
DALLAS
DUBAI
HONG KONG

HOUSTON

LONDON
MOSCOW
NEW YORK
PALO ALTO
RIO DE JANEIRO
RIYADH
WASHINGTON

January 6, 2020
084201.0101
Aaron Michael Streett
TEL +1 713.229.1855
FAX +1 713.229.7855
aaron.streett@bakerbotts.com

BY HAND DELIVERY AND
ELECTRONIC FILING
Hon. Scott Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Maghreb Petroleum Exploration, S.A., et al. v. John Paul DeJoria; No. 19-789

Dear Mr. Harris:
Petitioner filed a petition for writ of certiorari in the above-captioned matter on
December 16, 2019, and the case was placed on the Court’s docket on December 20, 2019.
Because we believe the case plainly fails to raise an issue for review by this
Court, Respondent John Paul DeJoria hereby waives the right to file a brief in opposition.
If the Court wishes to see a brief in opposition, we will, of course, promptly file
one.
Respectfully submitted,

Aaron M. Streett
Counsel for Respondent John Paul DeJoria

cc:

Counsel of Record for Petitioner
Geoffrey Lloyd Harrison
Susman Godfrey L.L.P.
1000 Louisiana, Suite 5100
Houston, TX 77002

44222036.1

